                                                                Issue Date
                                                                     June 22, 2007
                                                                Audit Report Number
                                                                     2007-NY-1008




TO:        Kathleen Naymola, Director, Community Planning and Development, 2FD


FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: The City of Newark Did Not Always Administer Its Community Development
         Block Grant Program in Accordance with HUD Requirements

                                  HIGHLIGHTS

 What We Audited and Why

            We audited the City of Newark’s (City) Community Development Block Grant
            (CDBG) program. We selected the City for review because of the size of its
            program and because the U.S. Department of Housing and Urban Development
            (HUD) classified it as a high-risk CDBG recipient in a 2005 annual assessment.
            Our audit objectives were to determine whether the City (1) disbursed CDBG
            funds efficiently and effectively in accordance with its submission to HUD and
            with applicable rules and regulations, (2) had a financial management system in
            place to adequately safeguard the funds, and (3) had program controls in place to
            ensure that activities were administered properly and met the CDBG national
            objectives.

 What We Found
            The City did not always comply with applicable regulations and its submission to
            HUD while disbursing CDBG funds. Specifically, it did not (1) maintain proper
            supporting documents for payments made on a bond obligation, (2) report and
            adequately account for program income, and (3) maintain adequate supporting
            documents for its drawdowns. As a result, more than $10 million in bond and other
            payments is unsupported, $261,228 in disbursements is ineligible, and the City
            cannot ensure that more than $9.7 million in future bond payments will be an
            efficient use of funds.
             There were control weaknesses in the City’s financial management system used to
            safeguard funds. Specifically, the City’s financial management system did not
            ensure that (1) administrative costs were expended in proportion to delivery costs,
            (2) adequate time distribution records were used to allocate personnel expenses to
            various programs, (3) accounting records were accurate, and (4) key positions had
            adequate separation of duties. Consequently, funds allotted for administration may
            have been expended prematurely, CDBG funds may have been used to pay the
            salaries of employees not participating in CDBG activities, financial information
            may not have been accurate, and funds were not properly safeguarded.

            The City did not implement proper program controls in accordance with HUD
            requirements. Specifically, it did not adequately monitor its CDBG programs
            administered by its subgrantees and itself, or properly document whether
            programs met the CDBG national objectives and were accomplished in
            compliance with federal laws and contractual standards.

What We Recommend

            We recommend that the director of HUD’s New Jersey Office of Community
            Planning and Development instruct the City to (1) reimburse the CDBG program
            from nonfederal funds the $246,523 paid in excessive bond drawdowns, (2)
            provide supporting documentation for more than $9.8 million in disbursements
            made related to bond payments or reimburse the CDBG program for any amounts
            not supported from nonfederal funds, (3) establish procedures to ensure that
            adequate documentation for all future bond payments is maintained, (4) determine
            the actual amount of unreported program income and provide support for the
            disposition of these funds or reimburse that amount to the CDBG program, (5)
            provide supporting documentation for the unsupported drawdowns and reimburse
            all overdrawn amounts, and (6) establish and implement adequate control
            procedures to ensure the proper administration of all CDBG activities.

            For each recommendation without a management decision, please respond and
            provide status reports in accordance with HUD Handbook 2000.06, REV-3.
            Please furnish us copies of any correspondence or directives issued because of the
            audit.

  Auditee’s Response

            On May 8, 2007, we requested the auditee to provide their response. We
            discussed the results of our review during the audit and at an exit conference on
            May 22, 2007, when the auditee provided their written response. The auditee
            disagreed with portions of the report. The complete text of the auditee’s response,
            along with our evaluation of that response, can be found in appendix B of this
            report.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding 1: The City Did Not Always Comply with HUD Regulations While       5
                 Disbursing CDBG Funds

      Finding 2: There Were Control Weaknesses in the City’s Financial Management 9
                 System

      Finding 3: The City Did Not Have Adequate Program Controls                 12


Scope and Methodology                                                            14

Internal Controls                                                                16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             18
   B. Auditee Comments and OIG’s Evaluation                                      19




                                            3
                      BACKGROUND AND OBJECTIVES

The Community Development Block Grant (CDBG) program was established by Title I of the
Housing and Community Development Act of 1974 (Public Law 93-383). The program provides
grants to state and local governments to aid in the development of viable urban communities.
Governments are to use grant funds to provide decent housing and suitable living environments
and to expand economic opportunities, principally for persons of low and moderate income. To
be eligible for funding, every CDBG-funded activity must meet one of the program’s three
national objectives. Specifically, every activity, except for program administration and planning,
must

   •   Benefit low- and moderate-income persons,
   •   Aid in preventing or eliminating slums or blight, or
   •   Address a need with a particular urgency because existing conditions pose a serious and
       immediate threat to the health or welfare of the community.

The City of Newark (City) is a CDBG entitlement recipient that has administered more than $10
million in CDBG funds annually during the past 10 years. These funds are available to support a
variety of activities directed at improving the physical condition of neighborhoods by providing
housing or public improvements/facilities, creating employment, or improving services for low-
and/or moderate-income households. Generally, City funds are used to pay the invoices submitted
by organizations carrying out CDBG activities, and the City receives reimbursement from the U.S.
Department of Housing and Urban Development (HUD) by submitting drawdown requests to the
U.S. Treasury.

The City works with about 100 nonprofit organizations to carry out its CDBG-funded programs.
Various departments and divisions of the City are responsible for overseeing, monitoring, and
supporting its many CDBG activities. The City’s files and records related to its CDBG programs
are maintained at 920 Broad Street, 110 William Street, 828 Broad Street, and 295 Halsey Street,
Newark, New Jersey.

We audited the City’s CDBG program because of the size of its program and because HUD
classified it as a high-risk recipient in its 2005 annual community assessment. Our audit objectives
were to determine whether the City (1) disbursed CDBG funds efficiently and effectively in
accordance with its submission to HUD and with applicable rules and regulations, (2) had a
financial management system in place to adequately safeguard the funds, and (3) had program
controls in place to ensure that activities were administered properly and met the CDBG national
objectives.




                                                 4
                                 RESULTS OF AUDIT


Finding 1: The City Did Not Always Comply with HUD Regulations
           While Disbursing CDBG Funds
The City did not always comply with applicable regulations and its submission to HUD while
disbursing CDBG funds. Specifically, the City did not (1) maintain proper supporting documents
for payments made on a bond obligation, (2) report and adequately account for program income,
and (3) maintain adequate supporting documents for its drawdowns. This noncompliance occurred
because of the City’s inadequate controls over bond financing activities, accounting for program
income, and support for drawdowns from HUD. As a result, more than $10.1 million in bond and
other payments is unsupported, $261,228 in disbursements is ineligible, approximately $1 million in
program income was not reported to HUD or adequately supported, and the City cannot ensure that
more than $9.7 million in future bond payments will be an efficient use of funds.


 Unsupported/Ineligible Bond
 Obligation Payments
           The Essex County Improvement Authority (ECIA) issued bonds in 1994 on behalf of
           the City for a principal of $11.17 million to fund seven redevelopment projects, and the
           City’s repayment for the debt to ECIA started in 1995. In 1999, the City refinanced part
           of the debt at lower interest rates for a principal amount of approximately $8.23 million,
           which would be paid off in 2014. The remaining principal of $2.77 million retained its
           amortization with the original interest rates and was paid off in 2005. However, the City
           did not maintain proper supporting documents for payments made on this bond
           obligation. Specifically, the City did not (a) maintain records that provided a full
           description of what the bond was for; the amount of funds budgeted, obligated, and
           expended; and the accomplishments of the bond activities; (b) maintain adequate
           support for the payments made or how bond proceeds were allocated to the seven
           activities; (c) maintain proper documentation to support that disbursements met one of
           the three national objectives; and (d) inform HUD that two of seven activities related to
           the bonds were abandoned and/or replaced.

           Regulations at 24 CFR [Code of Federal Regulations] 85.42, 570.506, and 570.502
           provide that the grantee should maintain proper supporting documentation for at least
           four years after the last expenditure report is submitted, in which the activity is reported
           as complete. The New Jersey State Record Retention regulation requires that bond files
           be maintained for seven years from the bond cancellation or maturity date. However, as
           stated above, the City did not maintain proper supporting documents for payments made
           on this bond obligation. We attribute these deficiencies to a lack of adequate financial
           and program controls over bond financing activities.




                                                  5
       Consequently, because of the inadequate documentation, more than $9.83 million in
       bond payments made by the City is considered unsupported pending an eligibility
       determination by HUD. Further, the amortization table established in 1999 for this bond
       indicates that more than $9.76 million in additional bond payments has to be made
       through the year 2014. However, without adequate support for these payments, the City
       cannot ensure that the payments will be an efficient use of funds. Consequently,
       procedures are needed to ensure that the payments are adequately documented and meet
       the CDBG national objectives, thus ensuring that the funds are put to better use.

       In addition, the City made excessive drawdowns related to bond payments after 1999
       since it did not follow the refinanced bond debt repayment schedule. Instead, it drew
       down CDBG funds for bond payments according to the original schedule, which had a
       higher interest rate than the refinanced one. As a result, $246,523 in excessive
       drawdowns was made from HUD. Since the actual bond payment was a lower amount,
       the City should have explained what the additional funds were used for. However,
       supporting documents for the excess drawdowns were not maintained; therefore, this
       amount is ineligible and should be reimbursed to the CDBG program.


Unreported Program Income

       The City did not report program income to HUD and did not have adequate controls
       over the accounting for program income. Regulations at 24 CFR 570.504 require that
       receipts and expenditures of program income be recorded as part of the financial
       transactions of the grant program and be subject to all applicable requirements
       governing the use of CDBG funds. The City drew down CDBG funds from HUD for
       demolition activities and was later reimbursed by property owners, who paid the costs
       of the demolition and other charges including interest and penalties for late payments.
       The City officials stated that since 1999, the CDBG programs have received
       approximately $1 million (the City is still calculating the actual amount as of the date
       of this report) in program income generated by its demolition services. However, it
       did not report the program income to HUD or keep proper records of how the funds
       were disbursed.

       According to City officials, this problem had been known for a long time and
       remained unresolved due to a lack of communication among the City’s various
       departments and the decentralized structure of the City’s CDBG administration. As a
       result, HUD has no assurance that program income was used for CDBG activities that
       complied with program requirements or whether the City drew down CDBG funds
       when program costs should have been applied to program income. Consequently, the
       City must determine the total amount of unreported program income since 1999 and
       provide documentation to show whether the program income was used for eligible
       activities. The City also needs to establish procedures to ensure that program income
       is properly accounted for and accurately reported to HUD.




                                            6
Drawdowns Not Adequately
Supported or Ineligible


        The City did not always have adequate supporting documentation for its CDBG
        drawdowns. As a result, we could not determine whether costs charged to the program
        were for eligible purposes and/or were reasonable. This deficiency was the result of the
        City’s inadequate controls over drawdowns and disbursements. Regulations at 24 CFR
        570.506 indicate that the grantee shall maintain evidence to support how CDBG funds
        provided to such entities are expended. This was not always done by the City as shown
        in the following examples:

              •   The City’s Division of Housing Assistance submitted drawdown requests for
                  various rehabilitation activities; however, the City’s files did not contain
                  sufficient supporting documents for the payments. Missing documentation
                  included independent architect provided work plans, inspectors’ certificates of
                  completion, and cost or price analyses for the projects. The amount of
                  unsupported drawdowns for the projects administered by the Division of
                  Housing Assistance was $189,956.

              •   Certain drawdowns for building inspection projects were based on estimates and
                  did not reconcile with the supporting documents. Since the adjustment records
                  only showed a lump-sum amount without a detailed breakdown of the
                  information, we were unable to determine whether the City made adequate
                  adjustments for the estimates. The amount of unsupported drawdowns for these
                  building inspection projects was $83,877.

              •   Records of overtime payments totaling $59,006 for employees at the Department
                  of Health and Human Services lacked information supporting that overtime was
                  incurred for CDBG-funded activities. In addition, $1,236 was ineligible since
                  the payment was paid to an employee who did not perform any CDBG services.

              •   The Division of Demolition and Clearance overdrew $13,469 from CDBG funds
                  without proof of actual expenses. Therefore, these excess funds are ineligible.

        As a result of not maintaining adequate supporting documentation for its drawdowns,
        the total unsupported drawdowns amount to $332,839, and total ineligible costs amount
        to $14,705.

Conclusions

        The City did not always comply with applicable regulations and its submission to HUD
        while disbursing CDBG funds. Consequently, more than $10.1 million in
        disbursements related to bonds and other items is not supported, and $261,228 in
        disbursements is ineligible; $9.7 million in future payments on a bond issue remains


                                                7
       questionable; and about $1 million in program income was not reported to HUD or
       adequately supported. We attribute these deficiencies to a lack of adequate financial and
       program controls over CDBG activities.

Recommendations

          We recommend that the director of HUD’s New Jersey Office of Community
          Planning and Development instruct the City to

          1A.     Reimburse the CDBG program from nonfederal funds the $246,523 in
                  excessive drawdowns related to bond debt repayments.

          1B.     Provide supporting documentation to HUD showing that the $9.83 million
                  in disbursements for bond principal and interest is eligible and in
                  compliance with HUD regulations. Any amounts determined to be
                  ineligible must be reimbursed to the CDBG program from nonfederal
                  funds.

          1C.     Establish and implement procedures to ensure that adequate documentation
                  for all future bond payments is maintained and is an eligible expense of the
                  program or discontinue making these payments. This would ensure that at
                  least one year of future bond payments that amount to $991,171 would be a
                  cost savings, and these funds would be put to better use.

          1D.     Determine the actual amount of unreported program income earned since
                  1999, which should include the interest and penalty payments received by
                  the City. Then submit all supporting documents showing the eligibility and
                  propriety of the program income that was earned and disbursed during the
                  period. Any amounts determined to be ineligible must be reimbursed to the
                  CDBG program from nonfederal funds.

          1E.     Provide all supporting documentation showing that $332,839 in unsupported
                  drawdowns related to rehabilitation projects, building inspections, and
                  employee overtime is eligible and in compliance with HUD regulations.
                  Any amounts determined to be ineligible must be reimbursed to the CDBG
                  program from nonfederal funds.

          1F.     Reimburse the CDBG program from nonfederal funds the $14,705 in
                  excessive drawdowns related to demolition services and the salary paid to
                  the employee who did not conduct CDBG activities.




                                             8
Finding 2: There Were Control Weaknesses in the City’s Financial
           Management System
The City had weaknesses in its financial management system. It did not always comply with
HUD requirements to ensure that (1) administrative costs were reasonably expended in
proportion to delivery costs, (2) adequate time distribution records were used to allocate
personnel expenses to various programs, (3) accounting records were accurate, and (4) key
positions had adequate separation of duties. This noncompliance occurred because the City did
not develop and implement adequate procedures to ensure compliance with all HUD regulations.
Consequently, funds allotted for administration may have been expended prematurely, CDBG
funds may have been used to pay the salaries of employees not participating in CDBG activities,
financial information may not have been accurate, and funds were not properly safeguarded as
there was a lack of assurance that funds were being used for eligible purposes.


 Excessive Administrative Costs
 Possible


              Excessive administrative costs may have been charged to the City’s CDBG
              program. Regulations at 24 CFR 570.206 provide for the payment of reasonable
              administrative costs related to the planning and execution of community
              development activities. The City expended more than $1.77 million or 88 percent
              of its total budget for administrative costs during program year 2005, while
              delivery costs represented only 46 percent of the total budget for program delivery
              of $8.08 million. Prudent business practices dicatate that funds to administer an
              activity should be expended in proportion to expenses for the actual activity or
              program delivery. However, the City seems to be swiftly expending its
              administrative funds. This appears to be the result of having inadequate controls
              over costs charged to program administration. As a result, funds to pay for proper
              administration of the program may not be sufficient for later periods.


 Lack of Adequate Time
 Distribution Records

              The City did not have adequate time distribution records to account for the
              salaries being charged to the CDBG program. Therefore, salaries charged to the
              program may have been excessive. According to Office of Management and
              Budget Circular A-87, employees should be compensated for the time devoted to
              an activity and be identified specifically to the performance of those activities.
              The City did not track its employees’ time by program activities. It charged to the
              CDBG program the full salary of many employees who performed additional
              functions not related to CDBG activities. For instance, two managers in the
              Division of Demolition and Clearance provided oversight to both CDBG- and


                                               9
           non-CDBG-funded projects, but their salaries were completely paid from CDBG
           funds. As a result, personnel costs were not accurately charged to various
           programs; thus, CDBG funds could have been used to compensate employees
           who worked on non-CDBG-related activities and may have been ineligible.

Inaccurate Accounting Records


           The City’s accounting records were not accurate, current, or complete. Office of
           Management and Budget Circular A-87, section C, entitled “Basic Guidelines,”
           paragraph 1(j), requires that costs be adequately documented to be allowable
           under federal awards. City funds were used to pay for the expenses incurred by
           CDBG activities, and the City was later reimbursed from CDBG funds. To track
           the expenses, the City maintained its own accounting data in its PeopleSoft
           accounting system and kept its CDBG drawdown records in HUD’s Integrated
           Disbursement and Information System. However, the City did not perform
           timely reconciliations between the two systems.

           For example, the Department of Neighborhood and Recreational Services had to
           draw down funds from HUD to pay salaries for the employees who worked on the
           building inspection projects. However, the information entered into HUD’s
           system was based on estimates due to delays in obtaining financial data such as
           employees’ timesheets from the PeopleSoft system. Nevertheless, the department
           did not make timely adjustments to HUD’s system to record accurate information
           until the end of the program year. As a result, identified accounting errors related
           to payroll estimates were not corrected in a timely manner and may have affected
           the overall accuracy of CDBG fund administration. The delayed reconciliation
           between the two systems was also noted for other departments and divisions
           including the Department of Health and Human Services. Moreover, the financial
           reports in the consolidated annual performance and evaluation report did not
           reconcile with each other. Therefore, the City cannot adequately ensure HUD and
           its citizens that its financial information is accurate, current, or complete.



 Inadequate Separation of
 Duties for Bond Payments

           There was inadequate separation of duties in processing Essex County
           Improvement Authority (ECIA) bond debt repayments. Regulations at 24 CFR
           570.489(d) provide that a grantee must have adequate controls to ensure that all
           funds received are used in compliance with all applicable statutory and regulatory
           provisions. Adequate controls would include having key duties and
           responsibilities in authorizing, processing, recording, and reviewing transactions
           separated among different individuals. Managers should exercise appropriate
           oversight to ensure that individuals do not exceed or abuse their assigned



                                            10
              authorities. However, the assistant treasurer of the City was the only person
              handling the ECIA bond debt repayments, including issuing the payments,
              authorizing the payments, sending out the payments, and keeping the records for
              the payments. No other staff members were responsible for reviewing or
              supervising his work. As a result, CDBG funds were not properly safeguarded,
              and the City cannot ensure that payments were properly authorized, processed,
              and recorded.

Conclusions

              The City incurred excessive administrative costs, lacked adequate time
              distribution records to track employees’ time spent on CDBG activities, did not
              maintain accurate accounting and financial information, and did not properly
              separate duties in processing ECIA bond debt repayments. Based on these
              deficiencies, we concluded that there were control weaknesses in the City’s
              financial management system.


Recommendations

              We recommend that the director of HUD’s New Jersey Office of Community
              Planning and Development instruct the City to

              2A.    Establish controls to ensure that administrative funds are expended in
                     proportion to program delivery costs to ensure that administrative funds
                     are available throughout the program delivery period without exceeding
                     the budget.

              2B.    Develop and implement time distribution records to track its employees’
                     time spent on various programs and ensure that salary costs charged to the
                     CDBG programs are reasonable and properly supported.

              2C.    Establish an appropriate financial management system to ensure that all
                     financial data are accurate, current, and complete and that timely
                     adjustments are made when errors are recognized.

              2D.    Implement adequate internal controls to ensure that key positions and
                     duties are properly segregated among individuals and that managers
                     provide appropriate supervision.




                                              11
Finding 3: The City Did Not Have Adequate Program Controls
The City did not implement proper program controls in accordance with HUD requirements. It
did not adequately monitor its CDBG programs administered by its subgrantees and itself or
properly document whether the programs were CDBG eligible, met one of the CDBG national
objectives, and were accomplished in compliance with federal laws and contractual standards.
This noncompliance occurred because the City did not develop and implement adequate control
procedures to ensure compliance with all HUD regulations. As a result, it may lack procedures
to detect deficiencies in carrying out CDBG activities and take necessary actions to correct or
prevent potential problems.


 Projects Not Adequately
 Monitored

              Regulations at 24 CFR 570.501(b) provide that the recipient is responsible for
              ensuring that CDBG funds are used in accordance with all program requirements.
              Subpart J of 24 CFR Part 85 states that grantees must monitor subgrantee
              activities to assure compliance with applicable federal requirements and that
              performance goals are being achieved. The City did not perform fiscal and/or
              programmatic reviews of its subgrantees and/or in-house projects for several
              years. For instance, the Division of Housing Assistance has not performed any
              fiscal or programmatic monitoring of its subgrantees since 2000. The Department
              of Health and Human Services has only conducted programmatic monitoring of
              its subgrantees since 1999 when the fiscal monitoring duty was taken over by the
              City’s internal auditors. Further, the internal auditor last performed fiscal
              monitoring in January 2002. In addition, serveral in-house projects administered
              by the Department of Health and Human Services were not properly monitored
              because the monitors were not able to obtain the necessary cooperation from
              individuals who were in charge of projects such as the Pediatric Van Project.
              Without adequate monitoring, there is no assurance that activities are being
              accomplished according to program requirements and that financial information is
              accurate and properly supported.


 Eligibility Not Evident

              The City did not maintain documentation to support whether CDBG activities
              were eligible and met the national objectives. Two of the seven redevelopment
              projects funded by Essex County Improvement Authority (ECIA) bond proceeds
              (see finding 1) were either canceled or replaced with another project. However,
              the City did not provide adequate documentation to explain why the project was
              canceled, how much CDBG funding was disbursed before the cancellation, or
              what the City planned for the remaining budget. Therefore, adequate information
              was not furnished by the City to provide a reason for changing the use of the real
              property or justify the eligibility of the replacement project as stated in 24 CFR


                                               12
              570.489(j). Moreover, the City did not inform HUD and its citizens of these
              changes as required by HUD regulations and its own policies. We attribute these
              deficiencies to a lack of controls to ensure that activities meet program eligibility
              requirements.

              This deficiency was also evidenced in many projects administered by the City’s
              Division of Housing Assistance as documentation supporting that the work was
              completed and met program objectives and standards was not available. One
              example is the rehabilitation projects discussed in finding 1, for which the City
              did not provide the documentation to support the eligibility of the activity.
              Consequently, by not maintaining the appropriate evidence in its files, the City
              could not demonstrate that some activities met at least one of the three CDBG
              national objectives as required by 24 CFR 570.200(a).

Conclusions
              The City did not adequately monitor its CDBG projects, maintain proper
              documentation to support whether these CDBG activities met the national
              objectives, and determine whether the activities were completed in compliance
              with requirements. Therefore, the City did not have adequate program controls
              over its CDBG activities.

Recommendations

              We recommend that the director of HUD’s New Jersey Office of Community
              Planning and Development instruct the City to

              3A.    Develop and implement an adequate project monitoring system to ensure
                     that projects comply with HUD regulations and the objectives of the
                     program. The City should resume both fiscal and programmatic
                     monitoring reviews of all of the projects carried out by City agencies
                     and/or subgrantees.

              3B.    Establish and implement policies and procedures to ensure that all funded
                     activities meet at least one of the three CDBG national objectives.
                     Procedures should also require that documentation supporting the
                     eligibility of projects be maintained in City files and any cancellations or
                     changes to the nature of the projects or national objectives should be
                     disclosed to the HUD Office of Community Planning and Development
                     field office and the citizens of the City.




                                                13
                        SCOPE AND METHODOLOGY

The audit focused on determining whether the City complied with HUD regulations, procedures,
and instructions related to the administration of the CDBG program. To accomplish our
objectives, we

   •   Reviewed relevant federal and New Jersey state regulations.

   •   Interviewed appropriate personnel of HUD’s Office of Community Planning and
       Development Newark field office and reviewed relevant grant files to obtain an
       understanding of CDBG program requirements and identify HUD’s concerns with the
       City’s operations.

   •   Reviewed the City’s policies, procedures, and practices and interviewed key personnel to
       obtain an understanding of the City’s administration of the CDBG program.

   •   Reviewed monitoring and independent accountant audit reports.

   •   Reviewed and tested the City’s files and records of selected projects to test whether (a)
       the costs were eligible and adequately supported as required by HUD regulations and (b)
       the City carried out these projects in accordance with HUD requirements and its
       submission to HUD.

The City’s Consolidated Annual Performance and Evaluation Report (CAPER) reflects that $7.9
million in CDBG funds was disbursements for 83 projects or activities between May 1, 2005 and
April 30, 2006. The projects consisted of two groups, those administered by the City or by its
subgrantees. We selected five projects with the highest disbursement amounts for each group,
resulting in a sample of ten projects totaling $3.97 million. We reviewed the expenditures and
related supporting documents for the test projects to determine whether the expenditures met
CDBG requirements, were reasonable, and complied with national objectives. We also
evaluated whether general administrative costs were reasonable and in proportion to delivery
costs. In addition, we examined whether program income was recorded during our audit period.
We also examined the City’s internal controls over its administration of the CDBG program.

In relation to the City’s payments made on a bond obligation (finding 1), we computed funds to
be put to better use by reviewing the current bond amortization schedule, which went into effect
after the 1999 refinancing. The last drawdown from HUD was for the April 1, 2004, bond
payment and was drawn down on February 28, 2006. From the amortization schedule, we
determined that the total future bond payments would amount to $9,767,481, which covers the
payments from April 1, 2005, through April 1, 2014. To be conservative, we estimated that one
year of future bond payments, which amounts to $991,171 would represent a cost savings or
funds to be put to better use if the City strengthens its controls. Specifically, if the City
implements our recommendations to establish and implement procedures to ensure that adequate
supporting documentation for all future bond payments and support for the eligibility of the


                                               14
payments is maintained, it will be able to ensure HUD and its citizens that the use of CDBG funds
to make these payments is an efficient use of funds. As a result, these funds will be used more
efficiently and will meet program requirements.

The audit generally covered the period from May 1, 2005, through April 30, 2006. We extended
the period as needed to accomplish our objectives. Due to the nature of some of the deficiencies,
we extended the period back to 1994.

We performed our audit fieldwork from September 2006 through April 2007 at the City’s offices
in Newark, New Jersey. We conducted our audit in accordance with generally accepted
government auditing standards.




                                                15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               16
Significant Weaknesses


           Based on our review, we believe the following items are significant weaknesses:

           •      The City did not have adequate controls over compliance with laws and
                  regulations, as it did not always comply with HUD regulations while
                  disbursing CDBG funds (see finding 1).

           •      The City did not adequately safeguard resources when it did not properly
                  account for program income, prudently disburse administrative funds,
                  develop time distribution records, maintain accurate accounting records, or
                  segregate duties (see findings 1 and 2).

           •      The City did not have adequate controls over its program operations when it
                  did not adequately monitor its CDBG programs administered by subgrantees
                  and document whether activities met CDBG requirements (see finding 3).




                                           17
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE


      Recommendation                                                    Funds to be put
          number           Ineligible 1/      Unsupported 2/            to better use 3/
              1A             $246,523
              1B                                   $9,831,537
              1C                                                               $991,171
              1E                                      332,839
              1F               14,705

             Total           $261,228              $10,164,376                 $991,171


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures, and any other savings which are specifically
     identified. In this instance, if the City implements our recommendation to establish and
     implement procedures that will ensure that adequate supporting documentation and support
     for the eligibility of all future bond payments is maintained, it will be able to ensure HUD
     and its citizens that the use of CDBG funds to make these payments is an efficient use of
     funds. The above amount represents one year of future bond payments.




                                              18
      Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         19
Comment 1




            20
Comment 2




            21
Comment 3




 Comment 4




             22
Comment 5




            23
Comment 5




 Comment 6




 Comment 6




             24
Comment 6




            25
Comment 6




Comment 7




            26
 Comment 7




Comment 4




             27
28
Comment 8




            29
Comment 9




Comment 4




            30
Comment 4




Comment 4




            31
Comment 4




Comment 10




             32
Comment 11




Comment 12




Comment 4




             33
Comment 4




Comment 13




             34
                         OIG Evaluation of Auditee Comments

Comment 1   City officials appreciated the thoroughness and professionalism of the audit staff
            and considered our report to be constructive, but had some areas where they had
            disagreements or needed clarification of the findings. They indicated that they
            would provide additional information that should resolve the issues raised.
            However, we reviewed the additional information provided by the City and it did
            not result in any changes to our conclusions or the report. (See Also Comment 13)

Comment 2   City officials agreed that they did not maintain the records related to the bond
            financing as required by the law. However, City officials stated that they
            considered the bond debt repayment issue as “settled”, since HUD CPD had never
            questioned it. City officials indicated that they complied with the requirements
            for eligibility, national objectives, environment and financial management. They
            provided additional documents at the exit conference; however, they did not
            provide sufficient information to justify the eligibility and/or reasonableness of
            the bond debt payments and the expenses associated with the seven underlying
            projects. Based on our review of the files provided by the City during our
            fieldwork and at exit conference, we concluded that the bond payments were not
            adequately supported.

Comment 3   City officials did not provide a written response regarding the $246,523 in
            excessive drawdowns from CDBG funds for the bond payments. However, at the
            exit conference City officials stated that they would provide a response after they
            have reviewed this area. As of the report issue date, no response was provided.

Comment 4   The comments and actions of the City officials are responsive to the finding.

Comment 5   City officials indicated that its Division of Housing Assistance (DHA) files
            contained sufficient information to document payments. During the course of the
            audit we were provided with a backdated City Inspector’s certification for
            payment and work completion, however, this certification was on the letterhead of
            the current administration, which did not take office until July 1, 2006. As such,
            we do not consider this a reliable document to support that the work was
            completed before the payment was made in 2005. In addition, although the Cost
            Estimate/Work Write-up prepared by the Division’s technical employees and the
            final standard release forms were mentioned in the City’s comments, they were
            not provided to us. City officials later agreed that the eligibility determination
            form was not in the project files. Further, although provided during the audit, per
            the City’s request, we presented additional information regarding the $189,956 in
            unsupported drawdowns after the exit conference; however, City officials did not
            provide a revised response.

Comment 6   City officials requested specific information regarding the unsupported
            drawdowns. As mentioned above, we provided detailed information for the



                                            35
              unsupported drawdowns to City employees during the audit and again after the
              exit conference; however, City officials did not provide a revised response.


Comment 7     City officials indicated that it can accrue and pay administrative costs
              immediately but that there is a lag in the payment of program delivery costs, as
              other steps have to occur (e.g. contracts and environmental reviews). The City
              wanted clarification of the issues regarding the excessive administrative costs.
              Thus, we explained to City officials that the expenditure rate for administrative
              costs was significantly higher than the rate for program delivery costs, and might
              result in insufficient administrative funds being available to carry out CDBG
              activities to the citizens of Newark in the future. As a result, controls need to be
              developed to ensure that administrative funds are not used up before the program
              is delivered.

Comment 8     City officials stated that there is a misunderstanding of the process of payment of
              debt service. They provided an extensive narrative describing the controls and
              separation of duties regarding bond payments. However, the documentation
              provided by the City did not show that all the procedures and controls enumerated
              were followed. As such, the documentation provided did not adequately show that
              the bond debt payments had been reviewed, approved and processed by multiple
              individuals before the payments were made.

Comment 9     City officials stated that recommendation 2A has been accomplished if you
              consider the timing differences due to the late submissions/approvals of their
              entitlement grants. However, because the late submission and approvals of
              entitlement grants may cause the rate of administrative costs to exceed that of
              program expenditures, controls need to be implemented to ensure that
              administrative funds are available throughout the entire grant period and not
              exhausted before the program is delivered.

Comment 10 City officials indicated that they should have exercised due diligence to comply
           with the regulations, but claims that their use of CDBG funds benefited
           low/moderate-income areas and is within the broad intent of the program.
           However, without adequate supporting documents, we cannot evaluate the
           eligibility and reasonableness of the CDBG funds disbursed.

Comment 11 City officials agreed that the eligibility determination form was not placed in the
           file for the rehabilitation projects carried out by the Division of Housing
           Assistance, but stated that all these projects benefited low/moderated-income
           people. However, without adequate supporting documentation we cannot
           determine if the use of funds was in fact eligible.

Comment 12 City officials stated that they complied with regulations in administrating most of
           its CDBG activities, however, they indicated that they are correcting any




                                               36
              inadequacy and look forward to demonstrating improvements to CPD. As such,
              the comments and actions of the City officials are responsive to the finding.

Comment 13 City officials requested that we provide them additional information and
           additional time to reply to the issues raised. They requested that we consider their
           disagreements and the reasons for their conclusions. City officials indicated that
           they looked forward to improving their program in partnership with CPD. We
           provided City officials with information that they requested during the course of
           the audit and following the exit conference; however, these officials did not
           provide a revised response. We also reviewed additional documentation provided
           by the City officials and considered it in our evaluation of the their responses.
           However, the additional information provided did not result in any changes to our
           conclusions.




                                              37
